<html>
<title> - DROUGHT FORECASTING, MONITORING AND DECISION-MAKING: A REVIEW OF THE NATIONAL INTEGRATED DROUGHT INFORMATION SYSTEM</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                  DROUGHT FORECASTING, MONITORING AND
               DECISION-MAKING: A REVIEW OF THE NATIONAL
                 INTEGRATED DROUGHT INFORMATION SYSTEM

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                        WEDNESDAY, JULY 25, 2012

                               __________

                           Serial No. 112-98

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
75-394                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a3c4d3cce3c0d6d0d7cbc6cfd38dc0ccce8d">[email&#160;protected]</a>  

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         BRAD MILLER, North Carolina
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
JUDY BIGGERT, Illinois               DONNA F. EDWARDS, Maryland
W. TODD AKIN, Missouri               BEN R. LUJAN, New Mexico
RANDY NEUGEBAUER, Texas              PAUL D. TONKO, New York
MICHAEL T. McCAUL, Texas             JERRY McNERNEY, California
PAUL C. BROUN, Georgia               TERRI A. SEWELL, Alabama
SANDY ADAMS, Florida                 FREDERICA S. WILSON, Florida
BENJAMIN QUAYLE, Arizona             HANSEN CLARKE, Michigan
CHARLES J. ``CHUCK'' FLEISCHMANN,    SUZANNE BONAMICI, Oregon
    Tennessee                        VACANCY
E. SCOTT RIGELL, Virginia            VACANCY
STEVEN M. PALAZZO, Mississippi       VACANCY
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY


                            C O N T E N T S

                        Wednesday, July 25, 2012

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Ralph M. Hall, Chairman, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    11
    Written Statement............................................    12

Statement by Representative Eddie Bernice Johnson, Ranking 
  Minority Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    13
    Written Statement............................................    14

                               Witnesses:

Dr. Roger S. Pulwarty, Director, National Integrated Drought 
  Information System, National Oceanic and Atmospheric 
  Administration
    Oral Statement...............................................    16
    Written Statement............................................    20

The Honorable Gregory A. Ballard, Mayor, City of Indianapolis
    Oral Statement...............................................    26
    Written Statement............................................    28

Mr. J.D. Strong, Executive Director, Oklahoma Water Resources 
  Board
    Oral Statement...............................................    34
    Written Statement............................................    37

Dr. James Famiglietti, Professor and Director, Earth System 
  Science, University of California, Irvine
    Oral Statement...............................................    43
    Written Statement............................................    45

Ms. Patricia Langenfelder, President, Maryland Farm Bureau
    Oral Statement...............................................    52
    Written Statement............................................    54

             Appendix I: Answers to Post-Hearing Questions

Dr. Roger S. Pulwarty, Director, National Integrated Drought 
  Information System, National Oceanic and Atmospheric 
  Administration.................................................    80

The Honorable Gregory A. Ballard, Mayor, City of Indianapolis....    94

Mr. J.D. Strong, Executive Director, Oklahoma Water Resources 
  Board..........................................................    97

Dr. James Famiglietti, Professor and Director, Earth System 
  Science, University of California, Irvine......................   104

Ms. Patricia Langenfelder, President, Maryland Farm Bureau.......   105


                    DROUGHT FORECASTING, MONITORING
                          AND DECISION-MAKING:
                        A REVIEW OF THE NATIONAL
                 INTEGRATED DROUGHT INFORMATION SYSTEM

                              ----------                              


                        WEDNESDAY, JULY 25, 2012

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to call, at 10:02 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Ralph M. Hall 
[Chairman of the Committee] presiding.

[GRAPHIC] [TIFF OMITTED] T5394.001

[GRAPHIC] [TIFF OMITTED] T5394.002

[GRAPHIC] [TIFF OMITTED] T5394.003

[GRAPHIC] [TIFF OMITTED] T5394.004

[GRAPHIC] [TIFF OMITTED] T5394.005

[GRAPHIC] [TIFF OMITTED] T5394.006

[GRAPHIC] [TIFF OMITTED] T5394.007

[GRAPHIC] [TIFF OMITTED] T5394.008

[GRAPHIC] [TIFF OMITTED] T5394.009

    Chairman Hall. The Committee on Science, Space, and 
Technology will come to order.
    And I say good morning to you and welcome, everyone, to 
today's hearing on ``Drought Forecasting, Monitoring and 
Decision-Making: A Review of the National Integrated Drought 
Information System.''
    This hearing is particularly timely given the current 
drought conditions that are impacting a lot of the country, 
including much of my home State of Texas. And I am going to 
take a little of my time out to tell you a story about a bill I 
passed some five years ago, and I was over in Paris, Texas, 
making a speech about it, and one of my good friends over 
there, just to put it on me, said Congressman, will you bill it 
to rain? It was dry and hadn't rained in days and days. I 
thought about a minute or so. I said, yeah, it will. That is 
section four of the third page. He says really? And I said, no, 
I just give you a silly answer to a silly question. He was a 
good friend of mine, but three years later, we had, I mean, 
rainfall that drowned people above Texoma and all the 
programs--farm programs below it, ruined everybody. It rained 
incessantly for day and night.
    I called him about 3 o'clock one morning and his wife said 
when he got to the phone and hit his toe on a chair and he was 
mad when he got to the phone, but he said hello? I said hello, 
Hal, you remember that question you asked me about my bill? Go 
outside. And I have to go through that every time I go to 
Paris, Texas, now. But he was a good enough friend that I could 
talk to him like that. But we know how important it is and 
really timely this hearing is, and we are very grateful to you 
all for your time and preparation and time to get here and the 
time to help us.
    According to the U.S. Drought Monitor, over 70 percent of 
the United States is currently classified as abnormally dry or 
worse; and further, over half of the continental United States 
is experiencing moderate to extreme drought, and a third of the 
country is characterized as being in severe to extreme drought. 
These widespread conditions are negatively affecting corn and 
soybean crops.
    As of July 17, the Department of Agriculture reported that 
88 percent of the Nation's corn and 87 percent of the Nation's 
soybeans were in drought-stricken areas. In response to the 
pervasiveness of such dry conditions, Secretary of Agriculture, 
Tom Vilsack, designated 1,055 counties across the country as 
disaster areas.
    Droughts, unfortunately, have long been and continue to be 
recurring events. Using NOAA's own document over the past 110 
plus years, we see that drought has frequently occurred in the 
United States, the worst being the Dust Bowl years of the 1930s 
and the droughts of the '50s. There are some, of course, and 
there are those who would attribute this year's drought to 
climate change, but the Congressional Research Service tell us 
that ``drought has afflicted portions of North America for 
thousands of years'' and ``history suggests that severe and 
extended droughts are inevitable and part of natural climate 
cycles.''
    In any event, debating the causes of drought is not to be 
in front of us today. The real question is what can be done to 
provide better and timelier information to help enable federal, 
state, and local governments, and individual citizens better 
deal with droughts' impacts, and how to afford better 
forecasting and quicker reactions by governmental entities? 
That is kind of what I think my bill did. And my bill was 
really just to let them know that we were concerned about what 
they were going through and that we were sorry for them but 
there wasn't a heck of a lot we could do for them right at that 
time.
    The National Integrated Drought Information System, 
established by the National Integrated Drought Information 
System Act of 2006, is one of such efforts that is undertaken 
to answer this question. Housed in the Climate Program Office 
within the Office of Oceanic and Atmospheric Research at NOAA, 
its goal is to ``improve the Nation's capacity to proactively 
manage drought-related risks, by providing those affected with 
the best available information and tools to assess the 
potential impacts of drought, and to better prepare for and 
mitigate the effects of drought.''
    The NIDIS program developed and currently operates the U.S. 
Drought Portal, a website that features a range of services 
that are related to drought, including historical data on past 
droughts, current data from climate observations, early 
warnings about emerging and potential droughts, decision 
support services for managing droughts, and a forum for 
stakeholders to discuss drought-related issues.
    NIDIS' authorization expires at the end of this year, so we 
will receive testimony from witnesses representing federal, 
state, and local governments, as well as stakeholders on the 
program and on the discussion draft, ``The National Integrated 
Drought Information System Reauthorization Act of 2012.''
    And I welcome our witnesses and look forward to their 
testimony, and now recognize Ranking Member Mrs. Johnson for 
her opening statement.
    [The prepared statement of Mr. Hall follows:]

               Prepared Statement of Chairman Ralph Hall

    Good morning, and welcome to today's hearing on ``Drought 
Forecasting, Monitoring, and Decision-Making: A Review of the National 
Integrated Drought Information System.'' This hearing is particularly 
timely given the current drought conditions that are impacting much of 
the country, including my home state of Texas.
    According to the latest U.S. Drought Monitor, over 70 percent of 
the United States is currently classified as abnormally dry or worse; 
further over half of the continental U.S. is experiencing moderate to 
extreme drought, and a third of the country is characterized as being 
in severe to extreme drought.
    These widespread drought conditions are negatively affecting corn 
and soybean crops; as of July 17, the Department of Agriculture 
reported that 88 percent of the Nation's corn and 87 percent of the 
Nation's soybeans were in drought-stricken areas. In response to the 
pervasiveness of such dry conditions, Secretary of Agriculture, Tom 
Vilsack, designated 1,055 counties across the country as disaster 
areas.
    Droughts, unfortunately, have long been and continue to be 
recurring events. Using NOAA's own data over the past 110 plus years, 
we see that drought has frequently occurred in the U.S.--the worst 
being the Dust Bowl years of the 1930s and the drought of the 1950s.
    There are some, of course, who would attribute this year's drought 
to climate change; however, the Congressional Research Service tell us 
that ``[d]rought has afflicted portions of North America for thousands 
of years'' and ``[h]istory suggests that severe and extended droughts 
are inevitable and part of natural climate cycles.''
    In any event, debating the causes of drought is not in front of us 
today. The real question is: What can be done to provide better and 
timelier information to help enable Federal, State and local 
governments, and individual citizens better deal with droughts' 
impacts, and how to afford better forecasting and quicker reactions by 
governmental entities?
    The National Integrated Drought Information System (NIDIS) program, 
established by the National Integrated Drought Information System Act 
of 2006, is one such effort undertaken to answer this question. Housed 
in the Climate Program Office within the Office of Oceanic and 
Atmospheric Research at NOAA, its goal is to ``improve the nation's 
capacity to proactively manage drought-related risks, by providing 
those affected with the best available information and tools to assess 
the potential impacts of drought, and to better prepare for and 
mitigate the effects of drought.''
    The NIDIS program developed and currently operates the U.S. Drought 
Portal, a website that features a range of services related to drought, 
including historical data on past droughts, current data from climate 
observations, early warnings about emerging and potential droughts, 
decision support services for managing droughts, and a forum for 
stakeholders to discuss drought-related issues.
    NIDIS's authorization expires at the end of this year; therefore we 
will receive testimony from witnesses representing Federal, State and 
local governments as well as stakeholders on the program, and on the 
discussion draft, ``The National Integrated Drought Information System 
Reauthorization Act of 2012.''
    I welcome our witnesses and look forward to their testimony, and 
now recognize Ranking Member Johnson for her opening statement.

    Ms. Johnson. Thank you very much, Mr. Chairman, for 
scheduling this hearing to discuss legislation reauthorizing 
the National Integrated Drought Information System, or NIDIS.
    In recent weeks, virtually every media outlet across the 
country has shown a map that depicts over half of the 
continental United States as experiencing severe drought 
conditions. The Federal Government has declared 1/3 of the 
Nation's countries, roughly 1,300 of them across 29 States, as 
federal disaster areas as a result of the drought. In my own 
home State of Texas, over the last few years, scant rainfall 
and high temperatures have conspired to wreak havoc on the 
economy. Farmers and ranchers always bear the brunt of it. And 
that hits the pocketbook of every American as food prices go 
up.
    But the damage is not limited to agriculture. For instance, 
in Texas, conditions are again ripe for the kind of extreme 
wildfires that scarred large portions of the State last year. 
Tourism is suffering as water levels in lakes and rivers 
plummet, leaving boats and marinas stranded on dry land. 
Communities are imposing water restrictions and exploring new 
and more expensive water resources and technologies. And power 
plants and grid operators are taking a serious look at 
emergency plans should cooling water supplies fall short.
    Given the potential for massive economic damage, we need to 
recognize droughts for what they are--an extreme weather 
event--and design policies accordingly. Unlike disasters such 
as tornados, floods, and hurricanes, droughts do not leave 
people scrambling for cover. There are no sirens or emergency 
evacuations plans. The onset is slow with no defined beginning 
or end. The path of a drought's destruction is sprawling, often 
encompassing whole regions of a country while durations are 
typically measured in years.
    Just as we design policies, programs, and infrastructure to 
make predictions and limit the impacts of other extreme weather 
events, we should strengthen our capacity to do the same for 
droughts. One tool at our disposal is NOAA's NIDIS program. In 
its six years of existence, NIDIS has already provided 
important seasonal and long-term drought information that has 
aided countless communities in preparing for and mitigating the 
impacts of drought.
    But we cannot have a comprehensive approach to drought 
research and mitigation without exploring the potential 
linkages with a changing global climate. While I will be the 
first to urge caution in jumping to conclusions about the 
present-day impacts of a warming planet, I know that 
climatologists around the world are coming to a much better 
understanding of this complex relationship. We should leave the 
science to the scientists. To play politics and categorically 
deny the linkage between climate change and extreme weather is 
both irrational and irresponsible. Policymakers at every level 
have a duty to protect public welfare, and ignoring the 
realities of climate change simply leaves us less informed and 
ill-prepared for catastrophic events such as droughts and 
floods.
    Reauthorizing NIDIS is an important step and I commend the 
Chairman for considering this bill. But this is only one step. 
While I am not typically one to look a gift horse in the mouth, 
I must say that the bipartisan support for NIDIS leaves me a 
bit baffled and my colleagues on the other side of the aisle 
who have otherwise been relentless this Congress in trying to 
undermine or outright kill every other climate-related product, 
service, or research program. I am encouraged to see 
Republicans' recognition of the valuable services of NIDIS and 
what they provide and just hope that other climate-related 
programs receive similar treatment.
    Again, I thank the witnesses for joining us today, and 
thank you, Mr. Chairman. I look forward to the testimony.
    I yield back.
    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Ranking Member Eddie Bernice Johnson

    Thank you, Mr. Chairman for scheduling this hearing and for this 
legislation to reauthorize the National Integrated Drought Information 
System or NIDIS.
    As most of you know, every local and national media outlet has 
reported in the past week or two a map showing over half of the 
continental United States experiencing severe drought conditions. The 
Federal Government has declared one-third of the nation's counties--
1,297 of them across 29 states as federal disaster areas as a result of 
the drought.
    In my own home State of Texas, the reduced precipitation in 
addition to high temperatures have caused extreme wildfire conditions, 
water restrictions, a decline in tourism, reduced crop yields, and many 
other harmful effects. Texas has experiencing over the past year one of 
its most historic droughts, but thankfully last week we received a much 
needed and timely rainfall.
    However, unlike disasters such as tornadoes and hurricanes, 
droughts do not have a clear beginning or end, but rather precipitation 
slowly declines and our reservoirs and soil becomes increasingly drier. 
When this happens everything from beef prices to the cost of many 
consumer products leave its mark on family budgets. The droughts 
strangle our economy and especially our agricultural economy.
    While we continuously prepare for natural disasters such as floods 
and hurricanes, we need to continue to do more to mitigate and reduce 
the effects of drought.
    The NOAA NIDIS program has only been in existence for six years but 
this program has provided important seasonal and long-term drought 
information that has aided countless communities to make decisions to 
prepare for and mitigate drought.
    The federal investment in drought research and mitigation is only 
useful when decision-makers are continuously able to obtain and utilize 
the information. Fostering and supporting a research environment and 
framework that focuses on risk assessment, modeling, forecasting, 
monitoring, and management is the core of comprehensive drought 
information system.
    And in order for us to truly be comprehensive in any of our 
research and mitigation plans for these extreme weather events, we must 
not continue to bury our heads in the sand when it comes to the larger 
conversation of the changing climate. You can call it global warming, 
climate change, whatever, but there is no doubt that our climate is 
changing.
    Climatologists all over this country are making the link between 
these catastrophic events and a warming planet. Yes, to all those that 
say but we don't know that this is true, you are correct, we do not 
know. But that is the purpose of science and research. We must provide 
the resources and framework to our scientist to research what is going 
on so that we are better prepared to respond not just react.
    Reauthorizing NIDIS is an important step and I commend the Chairman 
for this, but this is only one step. And it baffles me that we gather 
today primarily on one accord to support this one particular climate 
service when my colleagues on the other side has attempted to stifle 
every other weather and climate product, service, and research it could 
in every federal agency possible. I just don't get it.
    We are here today to primarily hear from our witnesses about NIDIS 
and I am intrigued to learn their opinions about NIDIS and how it can 
continue to be most effective as well as what improvements we can make 
and additional research we may need to comprehensively respond to our 
inevitably changing climate.
    Again thank you for joining us here today and I look forward to 
your testimony.
    Mr. Chairman, I yield back.

    Chairman Hall. Thank you, Ms. Johnson. The gentlelady from 
Texas yields back.
    If there are other Members who wish to submit additional 
opening statements, your statements will be added to the record 
at this point.
    And at this time, I would like to begin to introduce our 
panel of witnesses. I plan to introduce three of the witnesses 
and then recognize Representative Bucshon and Representative 
Harris to introduce witnesses from their home States.
    Our first witness is Dr. Roger Pulwarty, the Director of 
the National Integrated Drought Information System, and Chief 
of the Climate Program, Offices of Climate and Societal 
Interactions Division at the National Oceanic and Atmospheric 
Administration. Dr. Pulwarty's research and publications have 
been on extreme events and disaster risk-reduction in the 
western United States, Latin America, and the Caribbean. He 
served on committees of the U.S. National Academy of Science.
    Our third witness is Mr. J.D. Strong, the Executive 
Director of the Oklahoma Water Resources Board. Under Mr. 
Strong's leadership, the Oklahoma Water Resources Board updated 
the Oklahoma Comprehensive Water Plan. It is a 50-year water 
supply assessment of policies and strategies designed to meet 
Oklahoma's future water need. Mr. Strong also oversees the 
administration of Oklahoma's AAA-rated 2.7 billion financial 
assistance program. Mr. Strong began his career at the Oklahoma 
Water Resources Board working as an environmental specialist.
    Our next witness is Dr. James Famiglietti. James 
Famiglietti, did I do pretty good with that? Okay. A Professor 
and Director of Earth System Science at the University of 
California at Irvine, his research group uses a NASA gravity 
recovery and climate experiment mission for satellite remote 
sensing and to track water availability and groundwater 
depletion on land. Before joining the faculty at the University 
of California at Irvine in 2001, he was an Assistant Associate 
Professor in the Department of Geological Sciences at the 
University of Texas. Glad to have you there.
    I now recognize Representative Bucshon to introduce our 
second witness.
    Mr. Bucshon. Thank you, Mr. Chairman.
    Our second witness today is the Mayor of Indianapolis, the 
Hon. Gregory A. Ballard. Greg Ballard was elected the 48th 
Mayor of Indianapolis on November 6, 2007, and the City of 
Indianapolis reelected Mayor Ballard to a second term on 
November 8, 2011.
    In 2010, Mayor Ballard launched an initiative to rebuild 
deteriorating thoroughfares, residential streets, sidewalks, 
and bridges, as well as to address neighborhood drainage and 
flooding issues for the city, and this is on a successful 
pathway. Mayor Ballard also helped lead a team and they very 
successfully hosted this year's Super Bowl. Congratulations to 
the City of Indianapolis and based on that success will be 
competing and winning, we hope, the Super Bowl in 2018. 
Welcome, Mayor Ballard.
    Chairman Hall. I thank the gentleman from Indiana.
    I now recognize Representative Harris to introduce our 
final witness, final for this hearing.
    Mr. Harris. Thank you very much, Mr. Chairman.
    It is my pleasure to introduce Mrs. Patricia Langenfelder 
to the Committee, the President of the Maryland Farm Bureau. In 
addition, Mrs. Langenfelder is a member of the Kent County 
Planning Commission and a member of the Maryland Agricultural 
Fair Board. She and her husband and family operate a large 
grain farm in the First Congressional District and raise 
livestock, so she has the hands-on experience that she will 
bring to her testimony.
    Among her recognitions, she and her husband were inducted 
into the Governor's Agricultural Hall of Fame in 2001 in 
Maryland. They were named the Mid-Atlantic Master Farmers and 
were honored as Cooperators of the Year by the Kent County Soil 
Conservation District. So again, it is a pleasure to have Mrs. 
Langenfelder join us this morning.
    I yield back.
    Chairman Hall. Thank you for yielding back and for the good 
introductions to both of you.
    As our witnesses should know, spoken testimony is limited 
to five minutes after which the Members of the Committee will 
have five minutes each to ask questions. And we will be liberal 
with your five minutes. We are going to be a little tighter 
with those of us up here to where we are not here all day. But 
we are honored to have you and we thank you very much.
    And I now recognize some of the witnesses to present that 
testimony.
    Dr. Pulwarty, you are recognized for five minutes to 
present your testimony. You are not relegated to five minutes. 
Give us what you think we really need. Thank you.

         STATEMENT OF DR. ROGER S. PULWARTY, DIRECTOR,

        NATIONAL INTEGRATED DROUGHT INFORMATION SYSTEM,

        NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

    Dr. Pulwarty. Thank you. Good morning, Chairman Hall and 
Members of the Committee. My name is Roger Pulwarty. I am the 
Program Director of the National Integrated Drought Information 
System at NOAA in the Department of Commerce. It is an honor to 
be here today. In this testimony, I will highlight NIDIS' role 
in improving the Nation's capacity for understanding, 
predicting, and responding to drought.
    As you noted, drought is part of the American experience 
from the Southwest long dry period in the 13th century to the 
events of the '50s and the '30s in the 20th century. From 2000 
to 2010, the annual average land area affected by drought in 
the United States was 25 percent. Recently, over the past 
month, more than half of the country has experienced moderate 
or stronger drought conditions.
    NIDIS is authorized under Public Law 130 to provide an 
effective drought early warning system that includes indicators 
of drought severity and impacts reflecting regional and state 
differences. It is directed to do so in part by coordinating 
and integrated relevant federal research and by building upon 
existing forecasts and assessments programs.
    To fulfill this task, NIDIS supports four elements, all of 
which work together. Firstly, Coping with Drought research, 
which provides extramural grants to academic and other 
researchers to assess the impacts of drought and to support 
drought decision support tools.
    Secondly, the climate test-bed, which accelerates the 
transition of scientific research to improve the operational 
climate forecast products.
    Thirdly, the NIDIS U.S. Drought Portal, drought.gov, 
provides a one-stop shop for credible and easily accessible 
drought-related monitoring products.
    And the fourth element is a network of regional drought 
early warning information systems, which recognizes that 
drought impacts vary from region to region, as we will hear. 
The drought early warning system integrates information from 
the above three elements--from the portal, the observations, 
the research--and from our federal and local partners to 
develop drought outlooks for specific regions. A recent example 
of an outlook product for Wyoming, Utah, and Colorado, where I 
live, is provided as a supplement to this testimony.
    To date, NIDIS has implemented a regional early warning 
system, the very first of its kind in the United States in the 
Upper Colorado River Basin and is developing similar systems in 
the Apalachicola, Chattahoochee, Flint basin and in the State 
of California. The approaches and tools developed for these 
systems are intended to be transferred to other regions such as 
the Pacific Northwest, the Great Plains, the Carolinas, and the 
Chesapeake Bay tributaries. Since the program was authorized in 
2006, NIDIS has improved its effectiveness by increasing the 
number of States and institutions with data and capacity to 
inform drought risk management, the number of impact studies 
and user information needs assessments, and most critically, 
the percentage of the U.S. population covered by adequate 
drought early warning information systems.
    I will now provide a few specific examples of NIDIS' 
products and services and their impacts.
    Since spring of 2010, NIDIS has supported weekly drought 
updates and outlook webinars, the centerpiece of the Upper 
Colorado Drought Early Warning System, bringing together 
stakeholders from federal and state agencies, water 
conservation districts, recreation and tourism throughout the 
Upper Basin to raise awareness of the status of snowpack, 
reservoir conditions, and wildfire risks.
    NIDIS products in the Colorado Basin now include improved 
drought indicators linking seasonal climate forecasts and 
monthly streamflow estimates. According to the Colorado State 
climatologist who leads the NIDIS webinar in the Upper Basin, 
he says, since the early warning system was initiated, local 
public and private entities in the Upper Colorado Basin have 
refined the U.S. Drought Monitor, the national-level product, 
into a more useful product for basin-specific needs. This was 
long sought after by groups such as the Western States Water 
Council and others.
    The second example comes from a southeastern city. 
Throughout the NIDIS Coping with Drought research efforts, the 
researchers worked with the watershed division of Auburn, 
Alabama, where you have 53,000 residents, on using seasonal to 
yearly climate forecasts to reduce the impacts of drought. In 
March 2011, based on this information, the city issued a 
drought update in an effort to manage water demand. As a result 
of the city's proactive response to the impending drought, its 
water supply was not greatly affected. The city now uses the 
seasonal drought information and water supply planning and 
demand management on an ongoing basis.
    Many other examples of research, product development, and 
early warning exist. As acknowledged by our partners in the 
States and in regional federal offices, the research, data, and 
outlooks supported by NIDIS, such as during the southern 
droughts of 2011 to 2012, significantly improved planning and 
coordination relative to that of previous events prior to the 
NIDIS legislation.
    NIDIS' ability to meet drought information needs is 
strongly dependent on enabling observational capabilities. 
These include the USDA, Natural Resources Conservation Service, 
SNOwpack or SNOwpack TELemetry (SNOTEL) sites, the USGS Water 
Census under the Department of Interior's WATERSMART efforts, 
streamflow and reservoir levels from the U.S. Army Corps of 
Engineers and the Bureau of Reclamation, and the National Water 
Service Cooperative Observer Program. Essential research 
partners such as the National Drought Mitigation Center at the 
University of Nebraska in Lincoln work actively with NIDIS to 
improve operational products and to improve and inform drought 
planning at every level.
    While drought onset is important, warning of drought 
intensification, warnings of duration, and the potential 
recurrence are also critical. To achieve the truly national 
drought early warning presence envisioned by the NIDIS Act 
requires improvements that NIDIS has begun to address but for 
which further advances are needed. These include understanding 
drought variability and forecast reliability from a season to a 
year and even to a decade, including understanding the role of 
precipitation events in ending drought; collaboration among 
researchers, resource management, and the public to enhance the 
use and the value of our existing observation networks; and the 
transfer of successful tools and approaches to regions not yet 
having active early warning systems.
     Most critically is working with the private sector and 
others on guidance and standards for developing value-added 
products to support drought plans.
    Key to the future success of NIDIS is a sustained national 
system of credible, consistent, and authoritative observations. 
We at NOAA are grateful for the Committee's continued interest 
in NIDIS. I look forward to working with you and helping the 
Nation and our communities take full advantage of NIDIS to 
anticipate and reduce the impacts of drought.
    Thank you for the opportunity to speak with you.
    [The prepared statement of Dr. Pulwarty follows:]

    [GRAPHIC] [TIFF OMITTED] T5394.010
    
    [GRAPHIC] [TIFF OMITTED] T5394.011
    
    [GRAPHIC] [TIFF OMITTED] T5394.012
    
    [GRAPHIC] [TIFF OMITTED] T5394.013
    
    [GRAPHIC] [TIFF OMITTED] T5394.014
    
    [GRAPHIC] [TIFF OMITTED] T5394.015
    
    Chairman Hall. And we thank you.
    I now recognize Mayor Ballard to present his testimony.

 STATEMENT OF THE HONORABLE GREGORY A. BALLARD, MAYOR, CITY OF 
                          INDIANAPOLIS

    Mr. Ballard. Thank you, Chairman Hall, Ranking Member 
Johnson, Representative Bucshon, and to the full U.S. House of 
Representatives Committee on Science, Space, and Technology for 
inviting me to testify at today's hearing. My name is Greg 
Ballard. I am the Mayor of Indianapolis, Indiana, the 11th-
largest city in the country.
    Per the request of the Committee, my testimony is focused 
on how the drought has impacted the City of Indianapolis, our 
residents, and our business community. The drought of 2012 in 
Indianapolis is one of historic proportion and has been 
compounded by extreme temperatures. The Indianapolis division 
of Homeland Security, which considers NIDIS to be extremely 
important, monitored the weather using the city's Emergency 
Operations Center and data provided by the National Weather 
Service. Repeated activation of the division's extreme heat 
plan first prompted them to seriously consider--seriously 
evaluate the potential risk of drought conditions.
    Similarly, Indianapolis Water Utility, which is Citizens' 
Water, which operates the city's water supply, used weekly 
drought status updates for the area as published on the U.S. 
Drought Monitor website, which is a part of NIDIS, to determine 
whether enhanced water conservation efforts were necessary in 
response to progressing drought conditions.
    By late June, citizens had been delivering record amounts 
of water amidst the record-breaking heat. They estimated that 
30 to 40 percent of their water load was for lawn irrigation. 
Citizens asked its customers to stop watering their lawns 
voluntarily on July 6, resulting in a modest 20 million 
gallons-per-day reduction in water usage.
    On July 13, I enacted mandatory water-use restrictions to 
protect the city's dwindling water supply and ensure there was 
adequate water for the public safety and for their well being. 
These water-use restrictions included the ban on watering 
lawns, washing vehicles, using water to clean outdoor services 
such as sidewalks or driveways, filling empty swimming pools, 
installing new landscaping, amongst other restrictions. Water 
hydrants were authorized solely for fire suppression unless 
otherwise directed by Citizens Water. In less than a week, 
water usage dropped an additional 58 million gallons a day. 
Some businesses that depended on water to operate were exempted 
from the ban. Examples include nurseries, commercial car 
washes, golf courses, parks, and the like.
    At this time, we do not have complete and comprehensive 
information on the impact of this drought to the residents and 
to government or to business in Marion County, but many 
businesses voiced concerns over the impacts of water-use 
restrictions. These include pool companies, lawn care and 
landscaping businesses, irrigation repair companies, painting 
companies, power-washing companies, car dealerships that detail 
their own vehicles, and contractors and builders. None of these 
businesses were exempted from the mandatory water-use ban and 
many are small business owners who provide jobs in 
Indianapolis, so jobs have definitely been affected. It will be 
some time before we understand the full economic impact of the 
drought on Indianapolis.
    Anecdotally, we know that the drought and the ensuing water 
restrictions have place an incredible burden on businesses that 
rely on water to operate and the homeowners who need water to 
maintain their property. These restrictions have been an 
unfortunate but a necessary response to a severe and serious 
drought that is expected to persist into the fall.
    Clearly, the sooner Indianapolis knows about drought 
conditions, the sooner we can begin planning public information 
and preparing our leaders and our community for water 
conservation. That said, the expected accuracy of the 
prediction would likely have to be quite high before it would 
result in an early implementation and mandatory restrictions.
    Regarding the reauthorization of the NIDIS, I certainly 
support better, more timely, and more accurate drought-
reporting prediction services. It certainly would help all of 
us.
    Thank you.
    [The prepared statement of Mr. Ballard follows:]

    [GRAPHIC] [TIFF OMITTED] T5394.017
    
    [GRAPHIC] [TIFF OMITTED] T5394.018
    
    [GRAPHIC] [TIFF OMITTED] T5394.019
    
    [GRAPHIC] [TIFF OMITTED] T5394.020
    
    [GRAPHIC] [TIFF OMITTED] T5394.021
    
    [GRAPHIC] [TIFF OMITTED] T5394.022
    
    Chairman Hall. Thank you, Mayor.
    I now recognize Mr. Strong for five minutes to present his 
testimony.

                 STATEMENT OF MR. J.D. STRONG,

                      EXECUTIVE DIRECTOR,

                 OKLAHOMA WATER RESOURCES BOARD

    Mr. Strong. Thank you, Mr. Chairman and Members of the 
Committee, and for the opportunity to appear before you today 
to discuss an issue of critical importance to Oklahoma and 
other Western States, and that is drought monitoring, 
forecasting, and coordination. My name is J.D. Strong. I serve 
as Executive Director of the Oklahoma Water Resources Board. In 
addition to coordinating State drought monitoring activities, 
my agency carries out numerous water-related responsibilities 
for the State of Oklahoma, all of which are heavily impacted 
and influenced by drought. While I testify today as Director of 
the Oklahoma Water Resources Board, the State's water 
management agency, I know through my involvement in 
coordination with those in the Western States Water Council and 
Western Governors' Association that many other Western States 
share similar thoughts and suggestions about reauthorization of 
the National Integrated Drought Information System, or NIDIS.
    Why is drought such a challenge for us? And like other 
natural disasters such as floods and tornados, which strike 
suddenly and generally end within minutes or days, the effects 
of drought settle in slowly and often subtly over months or 
even years. That is why it is often referred to as the creeping 
disaster. It is often difficult to know when a drought has 
started and even more challenging to know when droughts will 
end.
    Additionally, and partly because of its subtle onset, 
society too often falls into what we call the ``hydro-illogical 
cycle.'' That is we ignore drought until the situation is dire, 
we lament the impacts, justifiable scream for help, and clamor 
for emergency funding, but invariably it rains, at which point 
we forget there was ever a problem and go back to business as 
usual. We must break this cycle.
    Drought also means different things to different regions 
and different water users, which highlights the importance of 
focusing research and monitoring and reporting not so much on a 
national scale but on measures and predictions that are 
relevant to state, regional, and local and tribal stakeholders.
    Oklahoma is no stranger to drought. Some 80 years removed 
from the infamous Dust Bowl era, we are experiencing our third 
major drought episode within just 6 short years. Virtually 
every year in Oklahoma, 1/4 or more of the State is classified 
in at least the severe drought category.
    Notably, my agency and the Water Development Board and the 
Chairman and Ranking Member's Home State of Texas were created 
in 1957 on the heels of what is the worst drought of record on 
the Great Plains. We have come far in Oklahoma in understanding 
and mitigating droughts' impacts. Oklahoma's world-renowned 
weather research community utilizing our 120 Mesonet Climate 
Monitoring Stations scattered across the State has developed 
advanced tools utilizing real-time information on 
precipitation, temperature, soil moisture, and many other 
parameters impacting water management and water stakeholders. 
Augmenting this essential weather data and research conducted 
at the National Weather Center is streamflow information 
collected by the USGS Cooperative Streamgaging Program, Corps 
of Engineers reservoir gages, Landsat thermal imaging for 
evapotranspiration, and numerous other sources of critical 
data.
    Still, Oklahoma, like the Nation in general, remains 
largely vulnerable to the vagaries of drought and its annual 
multi-billion dollar impacts. Reducing those impacts requires 
improved insight into this recurring disaster. That, as you 
know, is the goal of the still relatively new NIDIS program.
    Thanks largely to the foresight and resolve of Congress, 
including the leadership of Chairman Hall, and with much input 
and assistance from organizations like the Western Governors' 
Association, the National Integrated Drought Information System 
was launched in 2006. In short, it was created to focus 
research on advancing our predictive capabilities while 
establishing a communication link between the scientific 
community and those most affected by drought.
    What has it accomplished? From data integration to improved 
communication of outlooks to engagement with local, state, 
tribal, and regional and federal offices, NIDIS has established 
a more coordinated and effective drought monitoring and 
response network. Prior to NIDIS, there was no such 
coordination, and similarly, stakeholder involvement was 
lacking to nonexistent.
    In Oklahoma, NIDIS has a strong presence due to the active 
involvement of climate scientists at the National Weather 
Center, as well as funding the program provides to the Southern 
Climate Impacts Planning Program, one of NOAA's Regional 
Integrated Sciences and Assessment, or RISA, teams. Information 
provided through NIDIS Drought Portal has made my agency's job 
much easier in providing continuous updates of continuing 
drought conditions, allowing us to focus our attention and 
assistance on regions of the State that warrant heightened 
mitigation efforts. Of particular importance, NIDIS provides 
the seasonal drought outlook from the NOAA Climate Prediction 
Center and hydrologic forecasts from the NOAA River Forecast 
Center.
    While NIDIS has been largely successful, much work remains, 
including more and improved monitoring tools and predictions, 
expanded coordination between sectors and agencies, and 
integration of drought preparedness and response in the State 
Water and Hazard Plans. More importantly, we eagerly await 
development of a drought early warning system for our area, 
which is a key goal of the program and central to effective 
drought preparedness and response.
    Specific to the draft legislation, we appreciate Chairman 
Hall's sponsorship of NIDIS reauthorization and applaud this 
Committee for giving it due consideration. Specifically, I 
would respectfully urge the Committee to add language 
explicitly focusing on those NIDIS components that are still 
lacking full implementation, perhaps including a firm 
requirement and deadline for development of early warning 
systems and drought prediction strategies.
    In closing, drought is a real and present danger that 
affects this Nation to the tune of billions of dollars and 
countless lives every year. As my Congressman, Frank Lucas, who 
I know is chairing an Ag Committee meeting at this moment, can 
attest from his Chairmanship the disaster assistance that 
federal and state governments provides is nothing compared to 
the minute sums spent on data collection, analysis, and 
reporting, and yet decisions that involve billions of taxpayer 
dollars and American lives should be well informed.
    We as a Nation can ill-afford to step backwards when 
dealing with what is arguably the Nation's most menacing and 
costly natural disaster. Rather, we need to take the next step 
forward by building on the fundamental work accomplished under 
NIDIS since 2006 to establish the most valuable product of this 
endeavor--an efficient and accurate early warning system that 
can save both money and lives. Even incremental improvements in 
the accuracy of predictions regarding the location, duration, 
and intensity of drought, particularly if on a seasonal to one-
year scale would be extraordinarily beneficial in establishing 
contingencies and informing decisions made by water managers, 
farmers, ranchers, energy producers, and countless other water 
interests.
    I respectfully urge reauthorization of NIDIS with 
particular emphasis on those components not fully operational 
at this point in time, as well as necessary funding to ensure 
its full implementation. Thank you.
    [The prepared statement of Mr. Strong follows:]

    [GRAPHIC] [TIFF OMITTED] T5394.024
    
    [GRAPHIC] [TIFF OMITTED] T5394.025
    
    [GRAPHIC] [TIFF OMITTED] T5394.026
    
    [GRAPHIC] [TIFF OMITTED] T5394.027
    
    [GRAPHIC] [TIFF OMITTED] T5394.028
    
    [GRAPHIC] [TIFF OMITTED] T5394.029
    
    Chairman Hall. And thank you. I now recognize Dr. 
Famiglietti for five minutes to present his testimony.

              STATEMENT OF DR. JAMES FAMIGLIETTI,

         PROFESSOR AND DIRECTOR, EARTH SYSTEM SCIENCE,

                UNIVERSITY OF CALIFORNIA, IRVINE

    Dr. Famiglietti. Chairman Hall, Ranking Member Johnson, and 
other Members of the Committee, thank you for the opportunity 
to provide testimony today. My name is James Famiglietti and I 
am a Hydrologist and Professor at the University of California, 
Irvine, and formerly at the University of Texas.
    Drought is an insidious and patient killer of food and fuel 
crops, of livestock, of flora and fauna, and of humans. And it 
has emerged as a major threat to our Nation's food, health, 
economic, and water security. Unfortunately, these all may be 
at greater risk in the coming decades as increasing 
temperatures are expected to result in more frequent and 
prolonged drought.
    In spite of its enormous emotional and financial toll, 
current investment in drought forecasting, monitoring, and 
planning tools such as those that we are discussing today 
remains far too small to effect timely progress towards 
critical improvements. The stated goals of NIDIS are absolutely 
essentially for a national-scale drought monitoring prediction 
and awareness strategy. I fully support the continuation and 
proposed increase in NIDIS funding.
    For example, some key NIDIS successes are coordination of 
drought research in the United States. The NIDIS drought early 
warning system is emerging as a crucial step towards 
diminishing drought impacts and cost. NIDIS funding has 
supported many innovative research projects that are yielding 
insights towards improved drought monitoring prediction and 
mitigation. One of the most widely used and visible drought 
awareness tools is the U.S. Drought Monitor, an important 
partner of the NIDIS program.
    The gaps identified in the NIDIS implementation plan 
drastically limit the confidence of predictions and the 
accuracy of early warning systems. Of these, in my opinion, the 
most important are related to deficiencies in the Nation's 
hydrological modeling assets, a lack of observations of the 
water environment, and their integration. All of these underlie 
drought information systems like NIDIS. In fact, our Nation's 
ability to monitor and predict the state of its water 
environment is well behind where it needs to be to address not 
only issues of drought but also of water availability, 
flooding, groundwater depletion, of human versus ecological 
water requirements, and of the impacts of global change. 
Moreover, we are falling behind the capabilities of other 
nations while significantly constraining our domestic efforts 
to ensure sustainable water management.
    The following are critical steps toward an advanced drought 
monitoring and prediction strategy. First, more realistic 
computer simulation models are needed that represent all major 
natural and human components of the water cycle; a significant 
acceleration in the development of advanced computer models for 
hydrology and water management, including an integrated 
national water model, is essential for effectively managing 
drought and a range of critical water issues.
    Second, we must fill in fundamental knowledge gaps of 
Earth's water environment at the surface and the shallow 
subsurface. We know very little about the unseen topography 
beneath the water surface--for example, the bathymetry of 
thousands of river channels, floodplains, and lakes; or of 
soils or hydrogeology at the national scale.
    Third, we need your support for key satellite observations 
of water. Since Dr. Pulwarty summarized the need for continued 
ground base measurements, let me emphasize those for 
satellites. Several current and future NASA missions are making 
fundamental contributions towards understanding drought and 
improving its prediction. The GRACE mission has been quite 
successful in identifying areas of water stress and of 
groundwater depletion.
    The figures shown on the screen, for example, shows areas 
which have lost significant amounts of water over the last ten 
years, shown in red, due either to ice melting or groundwater 
depletion while the areas shown in blue have gained water. Note 
that the regions where groundwater is being rapidly depleted 
are in the arid and semiarid parts of the world where natural 
replenishment of aquifers is limited and where population is 
growing. In other words, it won't be getting any better in 
those locations.
    Upcoming mass emissions such as the Surface Water and Ocean 
Topography, or SWOT mission, will map changes in surface water 
storage, including areas of high and low river flows, lake and 
reservoir levels. The continued support of Congress for these 
core water missions is essential for effective and sustainable 
water management, including advancing our drought preparedness 
capabilities in the United States.
    Water is on a trajectory to rival energy in its importance 
in the United States, yet the investment in observations, 
models, and exploration of the subsurface pales in comparison. 
We have the potential to be world leaders in characterizing, 
monitoring, and predicting all aspects of the water environment 
from forecasting droughts and floods to science-informed, 
technology-based, long-term, sustainable water management. The 
vision and the technology are in place. Leadership in Congress 
is what will make it a reality.
    Thank you again for this opportunity to testify today.
    [The prepared statement of Dr. Famiglietti follows:]

    [GRAPHIC] [TIFF OMITTED] T5394.031
    
    [GRAPHIC] [TIFF OMITTED] T5394.032
    
    [GRAPHIC] [TIFF OMITTED] T5394.033
    
    [GRAPHIC] [TIFF OMITTED] T5394.034
    
    [GRAPHIC] [TIFF OMITTED] T5394.035
    
    [GRAPHIC] [TIFF OMITTED] T5394.036
    
    [GRAPHIC] [TIFF OMITTED] T5394.037
    
    Chairman Hall. And we thank you.
    I now recognize our final witness for today, Ms. Patricia 
Langenfelder for five minutes.

            STATEMENT OF MS. PATRICIA LANGENFELDER,

                PRESIDENT, MARYLAND FARM BUREAU

    Ms. Langenfelder. Good morning, Mr. Chairman and Members of 
the Committee. My name is Patricia Langenfelder and my husband 
is a fifth-generation farmer. And together with our three 
children, we farm 3,000 acres in Kent County, Maryland, about 
80 miles east of here where we grow corn, soybeans, wheat, and 
barley. We also have a livestock operation. I currently serve 
as President of the Maryland Farm Bureau, and I also serve on 
the Board of the American Farm Bureau Federation, the Nation's 
largest general farm organization, on whose behalf I am 
speaking today.
    And I would like to commend the Chairman and Ranking Member 
for holding this hearing today on this very important matter. 
As has been stated a million times already today and on the 
news and in the media, much of the Nation is currently in the 
grip of a significant drought that will ultimately touch the 
lives of every ag producer and consumer in this country. For 
this reason alone, it is important to have the best, most up-
to-date information on the Nation's drought conditions. Farm 
Bureau strongly supports legislation to reauthorize the 
National Integrated Drought Information System (NIDIS) and is 
ready to work with you for swift approval of this legislation.
    I would like to give the Committee an idea of the magnitude 
of the drought now facing farmers. This year's drought is the 
worst in recent memory. Objective measures of the drought's 
extent and severity are striking. Around 80 percent of the 
country is classified as abnormally dry, and more than 60 
percent is classified as being in moderate to exceptional 
drought conditions, the highest percentages in the Drought 
Monitor data going back to 2000. More than 54 percent of the 
country's pasture and rangeland is rated as poor or very poor, 
by far the highest percentage in the available data going back 
to 1995. Corn crop condition ratings are the worst for this 
point in the growing season since the devastating drought of 
1988.
    Dry pasture conditions have begun to force many ranchers to 
sell their cattle. Given the long biological lags in livestock 
and poultry production systems, it may take many months, in 
cases years, for the full effects to be reversed. Ultimately, 
the reduced production of beef, pork, poultry, eggs, and dairy 
products will be felt by consumers as higher retail prices.
    It is clear what a significant and integral role NIDIS 
plays in providing important and timely information to farmers 
and to markets. It provides an unparalleled set of data and 
graphics on drought conditions in the United States. NIDIS data 
is available with greater frequency than most other market-
related information. Frequently updated NIDIS data and maps and 
even real-time information on precipitation and temperature 
allow more informed adjustments to expectations for important 
new USDA reports like the weekly Crop Progress and the monthly 
Crop Production reports. This makes it less likely that these 
reports will catch the market by surprise, resulting in 
episodes of extreme price volatility.
    In conclusion, Farm Bureau supports the National Integrated 
Drought Information System Act because it provides the Nation's 
farmers, ranchers, and markets an effective drought warning 
system for key indicators of drought conditions and impacts. It 
is vitally important that Congress reauthorize the National 
Integrated Drought Information System, and Farm Bureau will do 
everything we can to assist you in this effort.
    We look forward to working with you to reauthorize this 
important legislation. Thank you and I would be pleased to 
respond to any questions.
    [The prepared statement of Ms. Langenfelder follows:]

    [GRAPHIC] [TIFF OMITTED] T5394.039
    
    [GRAPHIC] [TIFF OMITTED] T5394.040
    
    [GRAPHIC] [TIFF OMITTED] T5394.041
    
    [GRAPHIC] [TIFF OMITTED] T5394.042
    
    Chairman Hall. And we thank you.
    Ms. Langenfelder. Thank you.
    Chairman Hall. I thank all of you for your testimony.
    And I remind Members of the Committee, committee rules 
limit the questioning to five minutes.
    The Chair at this point will open the round of questions, 
and I recognize myself for five minutes.
    I would like to ask you folks who live in the real world, 
and each of you have touched on cities' rulings, and Mayor, you 
have had to enforce it, and I have had a touch of that in my 
hometown I will tell you about later if we have time. But I 
will ask you all that are on the ground, Mr. Strong, Mayor 
Ballard, and Ms. Langenfelder, does NIDIS really provide the 
necessary drought information that you all think we need? And 
what improvements do you suggest for it? And remember, we just 
have five minutes so----
    Mr. Ballard. Mr. Chairman, I can speak generally to it. I 
can't speak about all the details. I would tell you our 
Homeland Security system and our EOCs rely on it. Certainly, 
our water utility relies on it also, so it has been a big part 
of kind of planning, get ahead of it. I think anything that can 
be added to that that would allow us to look even more into the 
future with some sort of accuracy I think would be beneficial 
also, but we certainly use it at the city level, which maybe I 
am not sure that was the original intent. It might have been 
more agricultural in nature. But the fact is we do use it at 
the city level quite a bit and our folks appreciate it.
    Chairman Hall. Anyone else want to tie into that one?
    Mr. Strong. And I would just echo what the Mayor said as 
well. I think that NIDIS has definitely improved in integrating 
the data and information in one place that we can use to make 
decisions going forward. The Holy Grail, though, will be more 
accurate, longer-term predictions of drought into the future so 
that we can actually make some mitigation measures helpful a 
season or even a year in advance.
    Ms. Langenfelder. And I would echo the same and I just 
think that it is important that the agricultural community be 
aware. Early warning would be wonderful so that, you know, it 
helps when you are doing planting preparations to know that, 
gee, there is a drought coming. When you planted earlier this 
year, we did not know that. Some areas of the country did not 
know that, did not realize it, and so therefore a lot of money 
and expenditures was put into the ground and there was--there 
is no crop coming back out.
    Chairman Hall. Well, I thank you. And you have given us a 
lot of practical information. You know what you are talking 
about, for sure.
    I just thank all of you and it is still that five minute 
speech I gave to begin and I should have just said we need to 
know more about when a drought is going to hit us and then tell 
them--give some reaction to it a little bit quicker. That is 
what this hearing is really all about.
    And Dr. Pulwarty, how good is the current drought forecast 
issued by NIDIS and how accurate are the forecasts for a month, 
three months, or a year, 30 days, or 20 minutes or whatever?
    Dr. Pulwarty. Certainly, on the seasonal, 30-day to 90-day, 
when there are conditions such as El Nino and La Nina events in 
the Pacific, the forecasts are fairly reliable. In fact, as 
early as summer of 2010 because of the La Nina event the 
Climate Prediction Center at NOAA was able to say that the 
likelihood of drought development in the southern States was 
pretty high. So from the standpoint of reliability, the 
seasonal forecasts are fairly reliable.
    Moving out to the year, what ends up creating issues 
related to predictability and the reliability forecast has to 
do with the background variability on the ten-year timescale. 
So from our standpoint, linking the seasonal forecasts and the 
reliability of those forecasts to what is happening in the 
background, the Atlantic multi-decadal oscillation, the Pacific 
decadal, natural variability, the changes to reliability of the 
forecast is an area of research and in fact an area of 
applications.
    Chairman Hall. I am very close to the end of my questions 
so I will recognize Mrs. Johnson for her five minute questions.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    NOAA recently released the 2011 State of Climate report 
detailing global climate indicators in notable weather events. 
It included details on a number of extreme weather events such 
as the deadly tornado outbreaks in the United States and the 
extreme drought in Texas. Also released was an article 
published in the Bulletin of the American Meteorological 
Society that examines the potential linkages between climate 
change and the extreme weather events of 2011 such as a 
drought.
    I know that many of my colleagues on the other side like 
NIDIS, but for the past couple of years, they have done 
everything possible to block investments in climate change 
research and provided climate services more efficiently. I 
think the only way for us to know how to mitigate and respond 
to these events is to understand what is happening and the 
extent to which climate change is contributing to the severity 
and duration in addition to coordinating monitoring activities 
or other coordinated information services and research needed 
to understand global warnings potential role in driving the 
severity and frequency of such extreme weather events.
    I would like to hear from you, Mr. Strong, as well as Dr. 
Famiglietti on your comments on this.
    Mr. Strong. Well, he certainly is the scientist so I am 
sure he has a lot to say about that. I will just reiterate what 
I said earlier. I think long-term predictions of climate and 
its variability over 10-, 20-, 30-, 40-, 50-year timescales 
would be great, but as a practical matter, what we are more 
interested in at this moment is can we get to a year forecast 
of drought that will be something that we can take to the bank. 
That to us is really, as a practical matter, more important 
than those longer-term forecasts, even though longer-term 
forecasts certainly have value. I think the add is you got to 
walk before you can run is applicable here and so getting those 
shorter-term, more accurate drought predictions in place would 
certainly help us do our jobs much easier.
    Dr. Famiglietti. Famiglietti. It is a silent ``g''.
    The links between climate change and increasing extremes 
like flooding and drought are becoming much better established. 
They have been predicted by the IPCC for a number of years now 
and more research is being conducted that is bearing that out.
    I can just mention some of our own research using the GRACE 
mission, which has only been operating for ten years, but in 
that ten-year time period--and that is the slide that I showed 
behind me that showed the trends--there is a corresponding map 
that goes with that trend map that I showed that I don't have 
in my testimony that actually shows the water cycle and where 
it is strengthening. And by strengthening, we mean more 
precipitation and more evaporation and therefore more storms 
and more droughts.
    So we are working on quantifying the frequency and the 
intensity of flooding and drought. And even in just a ten-year 
time period, we are seeing some increases and at least figuring 
out how to quantify them.
    Ms. Johnson. Thank you.
    How does NIDIS aid in water planning and management during 
times of drought? I know that the immediate information makes a 
difference but as climate prevention for future droughts to aid 
and also early warning, shortness of time, but also having time 
to plan when you can predict longer times, could you comment on 
that, Dr. Pulwarty?
    Dr. Pulwarty. I can. Thank you. I appreciate Dr. 
Famiglietti's comments and his name. Usually mine is the most 
difficult to pronounce.
    So what we have been saying is from the standpoint of the 
information we have pulled together is in the midst of the 
development of droughts, while the onset is very critical, as 
we have seen in Texas and elsewhere, it is the development of 
drought intensification that begins to matter, when the 
reservoirs are lower, when food prices for livestock begin to 
go up. One of the things that we do is very much from the onset 
before any of that happens, ensure that the way the federal 
drought plans and the state plans are developed, people develop 
them on their own--it is their role to do so--we ensure that 
the information that we are going to be able to provide can be 
used more effectively up front by those plans.
    And so from that standpoint, we try not to just, you know, 
show up when a drought is happening but instead work from the 
research standpoint on ensuring that the plans can take full 
advantage of the soil moisture monitoring, of the forecasts, 
and so on.
    Where planning begins to take place from our standpoint is 
in improving the local assimilation of data that informs the 
national product such as the Drought Monitor. The drought plans 
and water plans in many areas are not as well linked, and part 
of our role is to make sure that they both receive the same 
data and information.
    From a water resources management standpoint, we make 
certain or try to make certain in the areas that we have been 
able to put early warning systems the way the entry points for 
information are in those plans are identified long up front so 
that we are not trying to find them during a drought event.
    Ms. Johnson. Thank you very much. I yield.
    Chairman Hall. I thank you and now recognize Congressman 
Smith, the gentleman from Texas, for five minutes.
    Mr. Smith. Thank you, Mr. Chairman. And Mr. Chairman, I 
want to say that I concur with the comments you made about the 
effective drought in Texas. All the friends I have who engage 
in dry land farming in south Texas have now lost their crops 
two years in a row because of a lack of rain. And it literally 
looks like a desert. I was there last weekend.
    First of all, Dr. Pulwarty, I would like to send a 
compliment your way. The Lower Colorado River Authority in 
Texas that you are familiar with has told me that they very 
much appreciate your willingness to disseminate information to 
them, to the landowners, to the farmers, to the policymakers as 
well, and they appreciate that good communication.
    I would like to direct, though, my questions to the other 
panelists. Dr. Pulwarty, I expect you to defend the presence of 
budgets so I am not going to ask you budget questions. But I 
would like to ask the other panelists if they feel that in the 
current budget proposal NIDIS has received a high enough 
priority or should there have been greater sense of urgency and 
a greater priority given to what NIDIS does? And Mayor Ballard, 
I guess we will start with you.
    Mr. Ballard. That is a great question. I am not familiar 
with all that goes on in this city, as you--not all the time. 
But I would suggest to you, sir, that anything that can 
mitigate the costs, the losses if you will, of the last few 
months across the Nation and, as you mentioned, last year also, 
needs to be upgraded in a priority listing because it saves all 
of us. It not only keeps people working but it also increases 
the tax base for municipalities, for States, and for the 
Federal Government eventually. So, you know, this could be the 
penny wise in this instance.
    Mr. Smith. Thank you.
    Mr. Strong, do you feel NIDIS gets a high enough priority 
in the budget proposal?
    Mr. Strong. Well, I don't specific budget proposal, but 
typically, I would say that given the billions of dollars and 
number of lives that are stake, that it certainly deserves 
heightened importance both in the budget and just in terms of 
attention. I know Dr. Famiglietti can talk more specifically 
about the shortfalls and gaps and did in his testimony, so 
certainly additional funds and resources would help. But given 
the billions of taxpayer dollars that are going to go out to 
address this issue, being able to avoid that by having some 
proactive measures in place using drought outlooks, for 
example, would be extremely helpful.
    Mr. Smith. Dr. Famiglietti?
    Dr. Famiglietti. So by priority do you mean higher amount?
    Mr. Smith. That and more emphasis perhaps, higher priority.
    Dr. Famiglietti. Okay. So I make a comment in my written 
testimony that if NIDIS is to continue to play mostly a 
coordinating role, then I think the amount of money that has 
been allocated is sufficient. But to really do a great job, you 
know, what underlies what Dr. Pulwarty is trying to accomplish 
in the models. And so, you know, I made the point that I think 
the models are far from where they need to be.
    Mr. Smith. Okay.
    Dr. Famiglietti. And so that is a much greater investment.
    Mr. Smith. Great. Mrs. Langenfelder?
    Ms. Langenfelder. Well, you are talking to someone who 
doesn't know very much about how much it is budgeted for, so I 
would just say that it is an important factor in reporting, but 
I am not familiar with that and I would have to apologize that 
I don't have a very good answer.
    Mr. Smith. Okay. I was going to suggest the Farm Bureau 
could always use more in that area, but----
    Ms. Langenfelder. Oh, we can always use every--lots more of 
everything.
    Mr. Smith. Okay. Last quick question here. Let me start 
again with the four panelists who just answered those 
questions. Is there anything more that NIDIS should be doing? 
You know, what other practical improvements can be made in 
their programs.
    Mr. Ballard. Well, it is easy to state the obvious. I think 
for most folks, I always like more research, no question about 
that, but the longer and more accurate need to make these 
forecasts I think is going to have the most impact.
    Mr. Smith. The number one priority. Okay.
    Mr. Ballard. Sure.
    Mr. Smith. Mr. Strong?
    Mr. Strong. Number one priority for us as well. If we could 
get early warning systems, especially for Oklahoma, in place 
right away, that would be great.
    Dr. Famiglietti. I think education and awareness amongst 
the general public is critical.
    Mr. Smith. Okay. And Ms. Langenfelder?
    Ms. Langenfelder. And the early warning for the 
agricultural community.
    Mr. Smith. Okay. Okay. Thank you all for your answers.
    And Mr. Chairman, I can't help but make a plug here because 
one of the great spinoffs of the Space Program has in fact been 
better weather forecasting. So that is an example where what 
you are talking about in our Space Program being interconnected 
and that is one of the great spinoffs that we have had. Thank 
you, Mr. Chairman.
    Chairman Hall. And I thank you.
    Ms. Lofgren from California for five minutes.
    Ms. Lofgren. Thank you, Mr. Chairman. And I--this is 
obviously a very timely hearing and I think I am hearing 
general consensus from the panel that when our Chairman and 
then-colleague Mark Udall put together this scheme, it actually 
has resulted in a good thing and it has been helpful, NIDIS 
has. And the question, I guess, before us is can we make it 
even more useful to the country? Dr. Famiglietti, I was struck 
by your chart that you showed and is also in your testimony 
about trends in fresh water availability, what is the reddest 
spot on that map are the Poles, massive loss of ice at both 
Poles, which is--brings to the forefront the question that so 
many Americans have, which is what is the role on the changing 
climate to the weather that we are experiencing?
    If we are going to move beyond a mere coordinating role for 
NIDIS, as you suggest, how would we integrate the climate 
change data that is being collected throughout the world into 
this mission that is NIDIS? I mean that is a huge challenge.
    Dr. Famiglietti. That is right. And so we are actually 
blessed in this country to have a great set of observations and 
your--on the ground and so your support in continuing those and 
increasing some of those will be greatly appreciated. But I 
think the key thing is some of these satellite missions like 
the ones that I have mentioned--you mentioned the chart from 
the GRACE mission--and there is a future satellite mission--
NASA mission called SMAP, Soil Moisture and--it is a soil 
moisture mission that will measure the wetness of soils. It 
will be great for agriculture. It will be great for a flood 
prediction. And the SWOT mission, which I mentioned, on 
tracking surface water storage changes over land.
    So I think one of the key frontiers for predictive modeling 
of the sort that underlies NIDIS is to be able to tightly 
integrate that satellite information with our models. And that 
is a huge task because the sensors make measurements at 
different times, different spatial resolutions, and then if you 
want to integrate the ground base measurements, this is a very 
difficult problem but essential.
    Ms. Lofgren. As a fellow Californian--and welcome to the 
Committee--I am wondering if you could discuss how NIDIS might 
be used to--in assessing complex water planning----
    Dr. Famiglietti. Sure.
    Ms. Lofgren. --that goes on----
    Dr. Famiglietti. Sure.
    Ms. Lofgren. --for example, as you know, our Governor has 
just made a proposal relative to the Sacramento Delta. It is 
pretty controversial----
    Dr. Famiglietti. Um-hum.
    Ms. Lofgren. --given the amount of water that would be----
    Dr. Famiglietti. Right.
    Ms. Lofgren. --removed. Implicit in that discussion is not 
just the water quality issue----
    Dr. Famiglietti. Right.
    Ms. Lofgren. --but what is going to happen in terms of 
water flow, the impact on the ecosystem of the Bay, of the San 
Francisco Bay as well as the Delta, the collapse of the----
    Dr. Famiglietti. Right.
    Ms. Lofgren. --snowpack? Can this data be used not just for 
the prediction of a drought for planning because that is 
obviously important but for a broader assessment of how we are 
going to cope?
    Dr. Famiglietti. Right. Yeah, so absolutely. And this is 
exactly what I am talking about. So by this tight integration 
of, say, in California high resolution computer models of the 
water cycle for California integrated with the space-based and 
ground-based measurements would give us a very best-available 
picture of what is happening with the snowpack, what is 
happening with the streamflow, what is happening with the soil 
moisture, and what is happening with the groundwater. Once we 
have that, then we can give that to the Department of Water 
Resources, to the Governor's office and say this is what we 
see. And we can also do some predictions in the future about 
planning options based on this best-available science.
    Ms. Lofgren. And finally, in terms of planning options--and 
you may not be able to answer this question--but the pace of 
climate change has exceeded all the computer models that I ever 
saw. I mean it is in the worst-case analysis----
    Dr. Famiglietti. Um-hum.
    Ms. Lofgren. --that I saw back in '95 when the Brits did 
the first modeling----
    Dr. Famiglietti. Right.
    Ms. Lofgren. How far out, given that the reality has 
exceeded the worst-case prediction on climate change, do you 
think we could predict using the models that you are talking 
about?
    Dr. Famiglietti. So it is very difficult question. And I 
think once you go past, you know, a few decades, the 
uncertainty grows, of course, but you can see general trends 
and you can think about options and you can plan out a range of 
options. It is just that the uncertainty gets greater because 
it is further out in the future.
    There is a difference between, say, forecasting like what 
is going to happen in the next week or the next month and long-
term planning. So, you know, with the forecasting, very similar 
to what Dr. Pulwarty is working on, we can probably go out a 
few months, a season. Once you get to a year, there is not much 
value. But from a planning and sort of future perspective, 
thinking about the possibilities of what will happen with, say, 
water resources in California or the western United States, we 
can go out a few decades and really start to think about what 
might happen and start to plan for that.
    Ms. Lofgren. Thank you, Mr. Chairman. My time has expired.
    Chairman Hall. Thank you.
    And I recognize Dr. Harris, the gentleman from Maryland, 
for five minutes.
    Mr. Harris. Thank you very much, Mr. Chairman.
    And, you know, with regards to predicting the outcome or 
decades out and the IPCC report, let's just remember that the 
2012 IPCC report on managing the risks of a string of events 
and disasters to advanced climate change mitigation concluded 
that ``there is low confidence in the attribution of changes in 
droughts at the level of single regions due to inconsistent or 
insufficient evidence.'' And might I add, maybe we just need 
more evidence. But they went on to say in that quote, ``North 
America there is medium confidence that there has been an 
overall slight tendency toward less dryness.'' So just in case, 
you know, some Members or some folks want to say that there is 
some definite connection and that this--climate change has some 
definite longstanding effects, I mean this is the IPCC. This is 
not an anti-environmental group coming out saying there is a 
medium confidence that there has been an overall slight 
tendency toward less dryness. I can tell you I can't see more 
hedging than that in the wording.
    But anyway, Ms. Langenfelder, let me ask you. In your 
testimony you spoke to the adverse impacts drought can 
obviously have on crops and farmlands and how it will affect 
the price of corn, feedstock, and related agricultural 
commodities. Now, I will tell you, as you are well aware, corn 
hit a--went over $8 a bushel I think. If it wasn't earlier this 
week, it was late last week. Record high--and we know the price 
of gas just went up.
    Affordability is becoming a problem for more Americans, 
even those who have jobs. I mean they say, look, things are not 
affordable. The price of grain affects not only directly the 
price of food but in terms of livestock, drought affects it in 
two ways. One, it raises the price of grain. The other is that 
you lose livestock, I mean the owners of livestock that thin 
their herds or they just don't raise as much either because it 
is no longer profitable to raise the livestock because of 
food--is that correct? I mean is that what we are going to see 
in the next few months if the price of grain commodities 
directly in food--directly and then livestock indirectly are 
going to increase, become even less affordable for Americans?
    Ms. Langenfelder. That is anticipated that will happen only 
because the price of feed gets so extremely high that the 
farmers, ranchers cut back on their livestock numbers. They 
will market them maybe in the short term. There will be a 
downturn in some of the pricing for some of the meats if you 
are talking about the meat specifically. But in the long-term 
if they thin the herds out, then in order to rebuild it takes--
for cattle it takes years for it to reverse and poultry, it is 
a little quicker turnaround on that, and hogs are kind of in 
the middle.
    So yeah, it could affect it in the long-term, and that is 
an unfortunate outcome of a drought because we lose the crop--
the cash crop of the grain and then the farmers who are feeding 
can't afford it so then they cut back on their herds and so 
there is less meat out there.
    Mr. Harris. And we know in fact that that is--we know--and 
the gentleman from Texas brought it up and the Chairman I am 
sure is well aware that, you know, this is what has happened to 
the price of--certainly the price of beef. I mean I, you know, 
I was in the store over the weekend--we all go to the store 
over the weekend and it is different over the last couple years 
because the American herds have been thinned.
    Now, Dr. Pulwarty, let me ask you because, you know, NIDIS, 
hopefully, if we could predict with some confidence, even in 
the short-term, even a seasonal term, that we knew what 
sections--and we know where we are growing the grain so we 
could make a guess at some of the prices of grain--and the 
reason why this important is because there was an article today 
in the--this morning in the Wall Street Journal reporting that 
one of the largest hog producers in the United States is going 
to buy its grain now from Brazil. Okay. So we are basically the 
grain exporters to the world, now we are going to import grain 
because the price is so high.
    So what are the folks over at NOAA doing to talk to the 
folks at EPA to say, wait a minute. If we can predict that we 
are going to have a drought and that the price of corn may well 
go over $8 and in fact what we are going to do is we are going 
to drive some of our production over--some of our acquisition 
of grain overseas, we are going to have the price of gasoline 
go up and fuel go up because of the renewable fuel standard, we 
are going to have the price of beef go up and chicken go up and 
cereal--breakfast cereal go up, have you been talking to the 
folks at EPA to say wait a minute. Why don't we talk--why 
doesn't the Administration talk about controlling the 
affordability of things like gas and food by thinking of maybe 
freezing the renewable fuel standard? Because this is 
something--could you have predicted this 2 months ago? I mean 
could you have predicted the fact that it looked like grain 
prices were going to rise a couple of months ago?
    Dr. Pulwarty. So to answer the question, the main groups 
that we work with from that standpoint is in fact USDA. And we 
look to other parts of the world for where droughts like these 
are happening and where purchasing can be much less from our 
standpoint. In terms of the near future, we certainly say 
something about the persistence of drought in the Midwest and 
the upper Midwest and maybe the release of drought conditions 
in the Southeast. From that standpoint, our major collaborator 
has been the water agencies such as the Corps of Engineers, 
Reclamation, and the USDA but not with EPA other than on low-
flow water quality issues during drought.
    Mr. Harris. And if I might just take 10 more seconds, Mr. 
Chairman.
    Why not the EPA since the renewable fuel standard is what 
is--combined with the drought is what causes corn to be at near 
$8 a bushel right now?
    Dr. Pulwarty. So from our standpoint the major role of 
NIDIS is to produce an information system that allows people to 
have the accessible information they need to make their 
decisions. And so we do not make recommendations about what 
they should be doing.
    Mr. Harris. Oh. Thank you, Mr. Chairman. I hope to send 
something over to the EPA. Thanks.
    Chairman Hall. All right, thank you.
    The Chair recognizes Mr. McNerney, the gentleman from 
California.
    Mr. McNerney. Well, thank you, Mr. Chairman, for holding 
this hearing. I think it is an important--it is important 
information.
    In my mind, it is critical that programs like the NIDIS be 
in place to provide critical information and support, and I am 
really delighted to see many of my Republican colleagues agree 
on this.
    Mr. Famiglietti, can you kind of give us an idea of how 
accurate programs such as NIDIS can be in providing drought 
early warning?
    Dr. Famiglietti. Yes. NIDIS, you know, what underlies NIDIS 
are weather prediction models. So we really won't be doing that 
much better with drought prediction than we will on our short- 
and medium-range weather predictions. So in that sense, the 
problems that underlie or the--you know, the ways to increase 
or improve our drought reliability forecasts are the same that 
we need to do to improve our weather forecasts and our 
hydrological forecasts. And so I think that we can realize 
great decreases in uncertainty mainly with integrated available 
measurements both on the ground and from satellites into our 
models. So I think that we could get our uncertainties down--
you know, at some point we will be moving out to--from--having 
much more reliability in our seasonal to annual forecasts, sort 
of the next horizon.
    Mr. McNerney. Well, I think you mentioned needing more 
realistic modeling----
    Dr. Famiglietti. Um-hum.
    Mr. McNerney. --and a national water model. Now, that 
includes data from NOAA's geosynchronous satellites----
    Dr. Famiglietti. Sure.
    Mr. McNerney. --as the polar systems, is that right?
    Dr. Famiglietti. That is right. Right.
    Mr. McNerney. What else do we need----
    Dr. Famiglietti. Right.
    Mr. McNerney. --besides those additional pieces of----
    Dr. Famiglietti. Okay. So some of the key things that are 
missing--so--and this is an important question because it draws 
the link between what Dr. Pulwarty is talking about, which is 
sort of predicting the drought and the work that we do in our 
research group, which is sort of understanding what happens to 
the water. So many people don't realize that we do not have a 
national scale water model that can help us predict streamflow, 
you know, in any of the major rivers of the United States. We 
don't have it. We don't have a national model that can tell us 
how much water is in the Ogallala Aquifer in the coastal plains 
or in the central valley. We don't have that. So that is 
something that is absolutely essential to take the step from 
the occurrence of drought to knowing how much water is 
available.
    Mr. McNerney. So one of the things you said that was kind 
of striking is that we can lead the world in long-term water 
management understanding. How would we get there?
    Dr. Famiglietti. So I think with help from you and 
encouraging more research funding through our funding agencies 
like NASA and the National Science Foundation and NOAA, but 
also I think that there is a lot of potential benefit in 
public-private partnerships. There is a lot of resources 
available there and there is a lot of technology. So I think 
the time is right for those sorts of partnerships because we 
could really surge ahead.
    Mr. McNerney. Thank you. I know NOAA was hurt by the cutoff 
of the Polar Satellite System, and I would expect that would 
impact this program as well, the NIDIS program as well.
    Dr. Famiglietti. Right. So I am not--I am actually not 
familiar with that satellite--with those satellites that you 
are talking about.
    Mr. McNerney. Mr. Pulwarty, you are familiar with that. 
Could you address that a little bit?
    Dr. Pulwarty. The addition of the information that provides 
shorter-term risk analyses that some of those satellites 
provided helps us understand when a drought might end from the 
standpoint of whether or not you get heavy rainfall events, and 
that was one of the contributions of that satellite.
    Mr. McNerney. Well, I mean it seems that what you are 
talking about needs consistent, reliable research data and 
information, and cutting off programs like that is going to set 
us back whenever it happens. These programs--these satellite 
programs, they have long-term, long-lead items that take six 
months, nine months, years and companies need to plan ahead for 
those purchases. So what you guys need in my opinion is just a 
reliable budget so you will know what to plan for and how to 
use the resources that are available, not just additional 
resources but consistency of resources.
    Dr. Famiglietti. That is right. Mostly, we operate on three 
to five year at best--average three-year funding cycle, at best 
a five-year funding cycle and it is really tough to get any 
momentum.
    Mr. McNerney. Thank you, Mr. Chairman. I will yield back.
    Chairman Hall. All right. I thank you.
    And the Chair recognizes Mr. Benishek, gentleman from 
Michigan, for five minutes.
    Mr. Benishek. Thank you, Mr. Chairman.
    Thanks for being here this morning. It was great to hear 
from you all. My question is for Mrs. Langenfelder. As you may 
know, I represent northern Michigan where agriculture is a 
critical part of our economy. We have fruit orchards, dairy 
farms, and a lot of business and industry that support those 
farmers. And I am impressed with the results of the drought-
related research and the data that NIDIS has been able to 
produce, but I am wondering how individual farmers can best use 
this data? I am a friend of farmers. I want to support farmers 
in any way I can in my district, but do you feel that the 
farmers are up to speed on this? Do they have the technology, 
the information, the education they need to implement this data 
or use it effectively?
    Ms. Langenfelder. Well, the data would be obviously what we 
are interested in is the weather and also the soil moisture 
content and things like that were discussed earlier. And, yes, 
most farmers, if they are going to stay in business, they try 
to stay up with technology and information and do learn about 
that--those kind of things that they need to use and utilize in 
order to stay in business. I mean----
    Mr. Benishek. On your farm you access this site weekly or--
--
    Ms. Langenfelder. No.
    Mr. Benishek. --I mean how do you get your information on 
this personally?
    Ms. Langenfelder. Well, you know, the internet and all the 
things come on Smartphones and all that. And my son and my--my 
son and daughters are quite agile with those, unlike their 
parents.
    Mr. Benishek. But you don't access it yourself, then?
    Ms. Langenfelder. Personally, no.
    Mr. Benishek. Well, that is the kind of thing I am 
wondering about, you know, if there has been enough education 
of farmers that they have, you know, day-to-day access, do they 
know how to do it? Is the Farm Bureau talking to those guys?
    Ms. Langenfelder. Certainly, there is education. The 
Extension helps you quite a bit with--in education to the 
farmers. And we get a lot of publications and you get 
information and weekly or monthly reports from Soil 
Conservation Service and you get it from Extension all the 
time. I mean we get--so there is updated information out there 
for farmers, and if they are internet savvy, they certainly are 
on top of it.
    Mr. Benishek. Dr. Pulwarty, do you have a comment? You kind 
of look like you wanted to chime in.
    Dr. Pulwarty. Yes, thanks for the question.
    One of the major contributions we have tried to make is by 
working with the National Drought Mitigation Center, with the 
Extension Services, with state climatologists on helping 
communities and local folks become more conversant with what we 
put on the web, and more critically, how to use that 
information.
    To say that we have national coverage in really working 
with folks at that level is not true, but what we have, a set 
of programs with the Mitigation Center, with Extension Services 
on creating what we call drought-ready communities whose major 
role is to be able to access and get guidance on the use of the 
information that we put on the website.
    Mr. Benishek. All right. Thanks.
    Mr. Strong, what lessons has Oklahoma learned that you 
could share with the Committee? And explain your work to 
support farmers such as, what methods have been more successful 
than others? Is there information that could have been provided 
more timely? Or are there specific programs about--that are 
within this that are especially valuable?
    Mr. Strong. Sure. I think one of the great successes of 
NIDIS has been the integration of--and coordination with other 
agencies and gathering that data. I think that the program, I 
would say, is still in its infancy after only 5 or six years 
but already we have seen great gains in that regard. So when we 
talk about how can farmers actually access this information, 
the weathermen, for example, in a State--in an agriculture 
State like Oklahoma are rock stars. Those are the guys that 
most people pay attention to when they watch the nightly news. 
But now, folks are starting to learn and the farmers and 
producers on the ground in Oklahoma are starting to learn they 
can access even more information related to drought through the 
Drought Portal, which has been set up, through integration of 
NOAA and the scientists involved with land grant universities. 
That sort of thing is helping to get the word out and helping 
our farmers and producers be able to get better access to that 
data information.
    I think there is still a lot of gains to be made in that 
regard as well, and hopefully, an additional six years or more 
NIDIS will help us be able to get that valuable information out 
to our farmers and producers so they can make sound decisions 
and investments a season in advance if not a year in advance 
about what to plant and that sort of thing.
    Mr. Benishek. Well, thank you very much. It looks like I am 
out of time but I want to see this program continue as well. 
Thanks.
    Chairman Hall. I thank the gentleman.
    Chair now recognizes the gentlelady from Oregon, Ms. 
Bonamici, for five minutes.
    Ms. Bonamici. Thank you very much, Mr. Chairman.
    To begin with, thank you all for coming here to testify 
today.
    The district I represent, the First Congressional District 
in Oregon, is home to some diverse agricultural interests, and 
while we may not today be facing the same drought conditions 
that are being experienced in places like the Midwest and other 
places of the country, I want to assure you that we are 
certainly interested in the conversation that we are having 
here today.
    I would like to take some of my time to talk about NIDIS 
and the Cooperative Extension Services. The Extension Services 
play a vital role in my community and across the country by 
linking the agricultural research and the communities and 
farmers that rely on the local extensions to get information. 
The thousands of extension offices across the country bring the 
expertise of the land grant colleges to their communities and 
surrounding regions, and the data that NIDIS provides is used 
by extension professionals as they help my constituents plan 
for weather conditions.
    So in Oregon, we have a prevalence of specialty crops, 
things like blueberries, hazelnuts, making Extension Services 
even more important. Some of the--for example, the wheat 
growers may go directly to the Oregon Wheat Commission to learn 
about the NIDIS predictions but the specialty crop growers 
often go directly to the Extension Services for information. 
And some of the extension offices even have specific 
information about the specific crops for the growers in the 
district.
    So my constituents have expressed some concern about the 
proposed reductions to the extension services in the fiscal 
year 2013 appropriations for the Department of Agriculture. And 
although you may not know the details of those proposed 
reductions, I wondered, especially Dr. Pulwarty, one of the 
topics you discuss is the collaboration with Extension Services 
as you work to develop a network of state-based drought 
information coordinators. And I know, Ms. Langenfelder, you 
just brought that up, and Mr. Strong, the importance of 
Extension Services and the land grant universities. So 
considering this, can you describe how reductions in the budget 
for programs like extension services would impact drought 
preparedness in response to agricultural communities across the 
country?
    Dr. Pulwarty. Relative to Oregon itself, one of the things 
that NIDIS helps support through drought research is the Oregon 
Climate Center out of Oregon State University. And in addition, 
a big part of their role is to interact with the network of 
people who provide information to the Extension Services. Any 
capability we have to get down to the level at which droughts 
are actually declared, at the county level, increases the value 
of the information to the American people.
    Ms. Bonamici. Thank you.
    Ms. Langenfelder, you are nodding your head.
    Ms. Langenfelder. Well, I am just in agreement. And it is 
very important to keep the Extension Services available. It is 
integral to the success of agriculture in most--across the 
country really.
    Ms. Bonamici. Thank you. Thank you very much.
    Mr. Strong and Dr. Famiglietti, I wanted to ask you, you 
both mentioned the ``hydro-illogical cycle,'' human behavior to 
ignore drought until water resources are depleted and the 
situation is dire. So how can we break that cycle? What can we 
do about that?
    Mr. Strong. Education and outreach is the key there. You 
talked about Extension Service, land grant universities I 
mentioned, that sort of thing. That is why they are also 
critical in that regard, helping people understand that this is 
not just something that is going to go away and never come 
back. This is something that happens in Oklahoma every year and 
how do we best prepare for it? So I think that is key as far as 
I am concerned.
    Dr. Famiglietti. First of all, I wanted to say that you had 
me at blueberries and hazelnuts.
    We think about this a fair amount and one of the things 
that we have come to in our research group is that people need 
to understand where their water is coming from. And if they 
understand where their water is coming from and what is 
happening to that particular source, then they will understand 
the long-term available. So in Southern California, we have 
water from the Sierras and the snowpack is decreasing, and we 
use groundwater, and we import water from the Colorado River 
Basin, where the snowpack is also decreasing. So that sort of 
awareness I think will really help people understand for long-
term prognosis.
    Ms. Bonamici. Thank you very much. And we also have some 
very fine vineyards in my district which I would be remiss to 
not mention.
    So thank you, Mr. Chair. I yield back.
    Chairman Hall. All right. The Chair recognizes the 
gentleman from New York, Mr. Tonko, for five minutes.
    Mr. Tonko. Thank you, Mr. Chair. And thank you for the 
hearing. I think it is so timely. And to the witnesses, the 
input has been very valuable.
    Mr. Strong mentioned Oklahoma's work with one of NOAA's 
Regional Integrated Sciences and Assessments groups. Are these 
regional groups addressing options for adaptation? And if so, 
is this a role that should be strengthened?
    Mr. Strong. I--you know, we have a relatively new RISA in 
Oklahoma. Certainly, I think that is part of the goal there, 
certainly better integration with our stakeholders in the 
Oklahoma, the water users, farmers, producers, energy 
producers, and that sort of thing to make sure that data and 
information that is relevant to their line of work is getting 
to them and is being collected. So making that connection 
certainly is a benefit of the RISAs. And adaptation I believe 
is certainly a function of those centers as well. Again, it is 
going to hinge on being able to make better, more accurate 
predictions going forward as to whether or not a lot of that 
information is valuable. But it certainly was helpful to us in 
our recently completed long-range water planning process as 
well, looking at the different potential scenarios, whether it 
is warmer, moister, hotter, drier, that sort of thing.
    Mr. Tonko. And is there a way to strengthen the capability 
through the NIDIS program?
    Mr. Strong. I am sure there is because I think the NIDIS 
program does provide that fundamental information that is 
valuable to that long-term prediction and the biggest benefit I 
believe is integrating all of the other data-collection efforts 
together into one place.
    Mr. Tonko. Dr. Pulwarty, I think you wanted to address the 
whole capability.
    Dr. Pulwarty. Yeah, thank you. There are 11 of those 
centers around the country, and as Mr. Strong was describing, 
their major role is really to understand how the cities, the 
States, and the regions that they are in are developing their 
planning, preparedness, and adaptation, and then to ensure that 
the best available scientific information is provided to them. 
From that standpoint, we have seen many successes around the 
country on increasing the capabilities of municipal, industry, 
and State, and what we tend to do through the Coping with 
Drought research program is ensure that those RISAs have the 
funds to work with the network of information users.
    Mr. Tonko. Thank you.
    There was also mentioned made of--I believe it was by Mr. 
Strong--of NOAA's River Forecast Centers and the Streamgage 
Network operated by the USGS in partnership with the States. As 
you are all aware, I am assuming, the USGS network is 
struggling and we have lost some gages. There has been talk of 
the satellites here this morning but the gages is part of that 
network with real-time measurement, this network, especially 
for gages where we have long-term measurements, are crucial to 
understanding our water budget and getting better predictions 
for droughts and floods. I wonder if you could address that, 
any of you on the panel, please. Dr. Famiglietti?
    Dr. Famiglietti. So you raised a critical issue and so the 
number of streamgages in the United States is in decline. It is 
also in decline globally. The satellites will help us 
understand some things but one of the things that they really 
won't be able to do in a great way is tell us what the 
discharge is at a certain point on a river basin. It will be 
sort of a prediction but it won't be a direct observation. So 
there is no substitute for a robust ground-based network of 
streamgages, not only streamgages but more monitoring, 
groundwater wells, and even the USDA is now measuring soil 
moisture with its SCAN site. So those are invaluable. They need 
your continued support. And the USGS could certainly use your 
help.
    Mr. Tonko. Thank you.
    Anyone else?
    Mr. Strong. I might just add that because NIDIS is not a 
bureaucracy in and of itself but it is heavily dependent on 
coordination with all of the other agencies that collect 
invaluable information like streamgaging information from USGS, 
it is important to make sure that not only adequate funding is 
provided for NIDIS but adequate funding is provided for all of 
these other streamgaging programs, reservoir monitoring at the 
Corps of Engineers Bureau of Reclamation, SNOwpack, SNOTEL 
monitoring at NRCS. All of those are extremely valuable and 
need support as well.
    Mr. Tonko. Thank you.
    And Dr. Pulwarty?
    Dr. Pulwarty. Thank you. To add to the chorus, there is 
nothing we can do without these enabling capabilities. The 
seasonal forecast, even longer projections are important. The 
satellite data is important but there is no substitute for 
local monitoring and understanding people's local situation.
    Mr. Tonko. Thank you so much.
    And Mr. Chair, I think I just went over my time. Thank you.
    Chairman Hall. In pretty good time.
    You know, today's baseball teams all have what they call a 
closer. You know, it is a good pitcher that comes in there at 
the 8th or 9th inning, and we have got one of the best closers 
in this Congress. It is Congressman Rohrabacher from 
California. I yield him five minutes. And then we have a 
Democratic closer down at the end, too. We don't want to forget 
her.
    Mr. Rohrabacher. I thought you had forgotten about her.
    Chairman Hall. All right. You are recognized, Mr. 
Rohrabacher.
    Mr. Rohrabacher. I think what the Chairman is referring to 
is when I start, everyone else leaves. So I apologize for 
having to come back and forth between hearings. Mr. Chairman, 
there was a hearing in the Foreign Affairs Committee on human 
rights abuses by the Chinese government, and I feel that it is 
very important for us to understand the economic relationship 
we have with the world's worst human rights abusers.
    But what is important is for us to stand up for our values. 
It is also important for us to make sure that we have the water 
and the energy necessary for ordinary people in our own country 
to live decent lives and enjoy the freedom that is our heritage 
as Americans.
    We have a lot of problem with water in California even. 
There is a problem that we understand is affecting a huge chunk 
of our most important industry, which is agriculture. And we 
are dismayed, let me just note, Mr. Chairman, that we are 
dismayed in California that huge amounts of water are being 
permitted to go off of the high Sierras, which is our water 
source, and dumped into the ocean in the name of saving the 
delta Smelt, a little fish about--you know, it is not even big 
enough to use for bait--and that type of nonsense has got to 
stop, too. But I agree with many of the points that have been 
made here today.
    Let me ask about the last point on monitoring, we have 
gotten in big trouble here in the last 20 years looking at 
computer models on weather and climate, big trouble with that. 
What we do need to make sure is that we are basing our 
decisions not on computer models but on actual gauging and 
measuring. And the last point that was just made here in the 
Committee is vitally important is that computer models can get 
all screwed up by whoever is putting information into the 
computer because they can get out of the computer whatever they 
want. But if we actually have the data, the hard data from 
instruments on the ground in measuring these water resources 
that we have, that puts us in a much more effective way of 
handling droughts and other natural challenges.
    I take it from the testimony that we have had many 
droughts. There are many cycles. My family grew up in North 
Dakota in the 1930s and I grew up with all of these tales about 
the great Dust Bowl and how they couldn't even plant their 
gardens because the dust just took over their whole farm. And 
what I have heard before I had to run down to the other hearing 
was that we now are suffering the worst drought since 1957. 
Well, '57 in the geological realm was not really that long but 
it does show you that we are going to face challenges of 
drought in a cyclical manner, and if we are going to minimize 
the damage and loss of wealth to our own people, we have got to 
have alternatives established.
    Now, what I want to ask about is the alternatives right 
now. Do we still see clouds? Do we--if there--if we have 
determined that we are in this drought and droughts can last 
through the cycle, another five years or something, do we see 
clouds? What about taking water out of the groundwater? Of 
course, the point that has to be made also, we have to know 
exactly how much water is in that groundwater before we extract 
it. And what about massive desalinization by utilization of 
nuclear power, which we haven't approved one new nuclear power 
plant in 30 years and perhaps nuclear power could help us 
desalinate water that would help us get through these cycles.
    So I thought I would just throw those questions about the 
potential of seeing clouds, groundwater, and desalinization as 
a vehicle to offset these cycles that we are going through. 
Maybe I will start with my friend from Irvine who I might add I 
am a proud resident of the county and I overlook--from 
neighborhood I overlook the University of Irvine right there 
and we are very proud of what they are accomplishing and what 
you are contributing to the well being of our country.
    Dr. Famiglietti. Thank you, sir. So I take that to mean you 
will be watching me from now on.
    So just to respond to some of your comments, we do need to 
look at a range of options in the future because we are going 
to be water stressed in many regions. And so de-sal is an 
option, and if we can bring the energy costs down--and maybe it 
is nuclear, maybe it is something else--we have to--the 
membrane technology is something that I think is driving up the 
cost and of course then thinking about what to do with the 
brines but--and where we live, you know, it is an option. 
Recycling, of course, we already do in Orange County and we 
have a phenomenal facility, and if you have never visited, it 
is right up there on my list with Disneyland.
    And so you made a good point about groundwater. I mean it--
there is--we can't--many people when we discuss renewable water 
resources suggest that we just look at sort of the difference 
between evaporation and precipitation and just use that. And 
that is a great idea but it doesn't work and that is why we see 
the groundwater depletion. We just have too many people and we 
have too many water needs. So--but your point is a good one 
because we have to know how much water is in the aquifers, not 
just in the United States but around the world, so we can 
manage our extractions. And, you know, it is like money in the 
bank. You don't want to just blow it all at one time.
    Mr. Rohrabacher. Thank you very much.
    Thank you, Mr. Chairman, for holding this very significant 
hearing.
    Chairman Hall. Thank you. Good closing.
    The Chair now recognizes the gentlelady from California, 
Ms. Woolsey, for five minutes.
    Ms. Woolsey. So what does that make me? The cleanup batter, 
Mr. Chairman, since he is the closer?
    Chairman Hall. Depends on whether you walk four in a row or 
not.
    Ms. Woolsey. Well, thank you. This has been wonderful 
because, for one thing, you all seem to be going in the same 
direction. I don't feel like--and I feel like you are giving us 
information that isn't based on politics. It is based on 
science and on observation and that your goals are the same as 
most of our goals.
    I have to say in defense of that little tiny smelt, I 
represent the 6th Congressional District just north of the 
Golden Gate Bridge, Marin and Sonoma Counties. And we believe 
that--and we have a lot of farming but my farmers are college 
graduates and they are very high-tech, second generation family 
farmers, ranchers. We know that the smelt has its place in the 
ecosystem and that, yes, indeed Southern California needs 
water, but we are not quite willing to, you know, give up 
protecting what has been there all these years. So we are--it 
is going to be a major battle and--but I think we can come up 
with--work together and come up with the right solutions.
    So, okay, my district, new generation of ranchers. They are 
high-tech. They are--because we have land trusts that keep land 
in Ag by buying the development rights, these ranches then the 
new second generation have funds to technically update their 
barns if they are--for milk, you know, if they are milking cows 
or their water systems if they are growing grapes. And they 
know how important what you are doing is. They don't come to me 
and scream about getting rid of the EPA. I can tell you that. 
They come to me and they beg me to get these--the Extension 
Services extended, not cut back. They want the information, 
what they can do, planned for over the next, they would say, 5 
years.
    So I--one of my questions to you is in order to relieve the 
uncertainty which is, you know, I love farmers. Their eyes are 
so clear because they get it. Most of it depends on Mother 
Nature. But we are fooling around with Mother Nature as human 
beings. So this drought monitoring, forecasting, how much of 
that can, then, come together to talk about prevention? How can 
we go the next step? And one thing is knowing what is coming. 
And, you know, let's just start with the first--Dr. Pulwarty 
and just go down the----
    Dr. Pulwarty. Yeah.
    Ms. Woolsey. --line if you will.
    Dr. Pulwarty. Yes, thank you. Now, one of the major things 
within the NIDIS legislation, the original 2006, was to provide 
information for being proactive. From that standpoint, it 
wasn't one post-doc researcher comes in and says, here, let me 
tell you what happened. But in fact getting closely engaged 
with how the States, localities, and federal drought and water 
management plans were being developed to ensure that they could 
take advantage of the present information.
    From our standpoint, having the capabilities and the 
training with people in those agencies as well as our own on 
how transfer, communicate, and use information beforehand is a 
big part of NIDIS.
    Ms. Woolsey. Thank you.
    Mr. Ballard. I think I should probably defer to the 
scientific experts.
    Ms. Woolsey. Okay, thank you, Mayor. I just wanted to give 
you a chance.
    Mr. Strong?
    Mr. Strong. I think I may do that as well.
    Ms. Woolsey. Okay. Dr. Famiglietti?
    Dr. Famiglietti. Well, it comes down to me. I was writing 
up my answer. So there is two parts. So you were asking a 
little bit about the models and the prediction and increasing 
the--decreasing the uncertainty, and so there is going to be 
substitute for better models, better data, better observations, 
better computers. We have to take our observations of water--
you know, in a sense we are giving you recommendations just in 
a simple way based on old technology. And we need to give you--
you know, we are a technologically advanced society and, you 
know, certainly here in the United States, so we could be doing 
a much better job.
    So--but the awareness thing is critical, and so I think the 
things like--that systems like NIDIS and its partners are 
essential in getting the message out. I don't know if Dr. 
Pulwarty, if you have iPad and iPhone apps, but I think it sort 
of came up in this discussion and it is the kind of thing I 
think that can really help raise awareness. You know, we take 
water for granted quite a bit in this country and I think, you 
know, it is seasons like this, drought season, that are 
starting to change that.
    Ms. Woolsey. Right. Ms. Langenfelder?
    Ms. Langenfelder. Not as a scientist, just as an observer 
here, I don't know what you would do for prevention but I think 
awareness, as this gentleman just said, making people aware of 
water and its importance to their lives and not just assuming 
it will always be there but to take precautions and preventions 
and how they utilize water and not waste it, just making people 
aware. And a drought does that. But then again when it rains, 
they forgot. So, you know, that is just the issue I think. But 
scientifically, I have no idea but--about the prevention.
    Ms. Woolsey. Well, how about the Farmers' Almanac? Is that 
still useful?
    Ms. Langenfelder. I think it is a guesstimate.
    Ms. Woolsey. Thank you, Mr. Chairman.
    Chairman Hall. I thank the gentlelady.
    And for the people who don't know, this is the last year 
for Mrs. Woolsey. We are going to miss her. She has been a very 
good Member of this Committee. She has always acted like she 
didn't like me but I think deep down she really does. We are 
going to miss her.
    That concludes our questions but I was telling you I was 
going to give you a practical answer that some of you can give 
the next time you testify over at the Senate or some other 
lesser body than this one. It is a practical matter that you 
can use that I learned the hard way.
    I was caught with a hose in my hand on a Friday when the 
only day you could water was on Wednesday. And I looked over 
there and a car with black and white lights going off and on 
and the officer walking toward me with me holding that hose. It 
turned out that a lady who had just moved into our neighborhood 
saw me with the hose--I guess she must have been a Democrat--
but she called the city and told them that Congressman Hall was 
out there watering; this was not a watering day. And he had to 
come.
    So he walked up to me, said, Congressman Hall, I hate to do 
it but I have to give you a ticket. I said, no, I am not going 
to get a ticket. He said, sir, you are not different than 
anybody else. I said, yes, I am different. I am a little bit 
different in this situation. He said, well, it disappoints me 
to hear you say something like that. My dad is one of your 
campaign managers and he is going to kill me, but I got to give 
you a ticket. And I said, no, take this hose. He said I am not 
going to touch that hose. I took his hand and made him take the 
hose. I said, now, start walking. We walked about 25 yards back 
up to where I have a 20,000 gallon tank and curb-and-gutter, I 
catch that water off my own roof and have a 600-gallon tank 
from a swimming pool, catch it from the other end of the house. 
That is the practical way to use the water that falls and not 
let it go on down to the gutter. He said, whew, I am glad. I 
was, too.
    But there you have a way. Tell people to curb-and-gutter 
their houses and save that water that God gives us and use what 
he gives us. And something to give you a good practical use, 
Mayor, take that one home with you.
    Thank you all very much and--the witnesses for your very 
valuable testimony. And if Members of this Committee have 
additional questions for any of you, they will respond--they 
will ask you to--in writing to give us--and hope you will give 
us a response to that. The record will remain open for two 
weeks for additional comments.
    And with that, if I can find my gavel, we thank you once 
again very much. We are adjourned.
    [Whereupon, at 11:52 a.m., the Committee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions

Responses by Dr. Roger S. Pulwarty

[GRAPHIC] [TIFF OMITTED] T5394.044

[GRAPHIC] [TIFF OMITTED] T5394.045

[GRAPHIC] [TIFF OMITTED] T5394.046

[GRAPHIC] [TIFF OMITTED] T5394.047

[GRAPHIC] [TIFF OMITTED] T5394.048

[GRAPHIC] [TIFF OMITTED] T5394.049

[GRAPHIC] [TIFF OMITTED] T5394.050

[GRAPHIC] [TIFF OMITTED] T5394.051

[GRAPHIC] [TIFF OMITTED] T5394.052

[GRAPHIC] [TIFF OMITTED] T5394.053

[GRAPHIC] [TIFF OMITTED] T5394.054

[GRAPHIC] [TIFF OMITTED] T5394.055

[GRAPHIC] [TIFF OMITTED] T5394.056

[GRAPHIC] [TIFF OMITTED] T5394.057

Responses by The Honorable Gregory A. Ballard

[GRAPHIC] [TIFF OMITTED] T5394.058

[GRAPHIC] [TIFF OMITTED] T5394.059

[GRAPHIC] [TIFF OMITTED] T5394.060

Responses by Mr. J.D. Strong

[GRAPHIC] [TIFF OMITTED] T5394.062

[GRAPHIC] [TIFF OMITTED] T5394.063

[GRAPHIC] [TIFF OMITTED] T5394.064

[GRAPHIC] [TIFF OMITTED] T5394.065

[GRAPHIC] [TIFF OMITTED] T5394.066

[GRAPHIC] [TIFF OMITTED] T5394.067

[GRAPHIC] [TIFF OMITTED] T5394.068

Responses by Dr. James Famiglietti

[GRAPHIC] [TIFF OMITTED] T5394.069

Responses by Ms. Patricia Langenfelder

[GRAPHIC] [TIFF OMITTED] T5394.071

[GRAPHIC] [TIFF OMITTED] T5394.072

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
